( t.
~+,~ ~
   ~1t"ciJa
~.~4"OV'C£$.O'.
                     DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                          Office of Inspector General


                                                                                                                     Washington, D.C. 20201




                                                                              OCT - 6 2008



                  TO:                    Keny Weems
                                         Acting Administrator
                                         Centers for Medicare & Medicaid ervices


                  FROM:
                                  tÆ ¿: y;oseph E. Vengnn
                                         Deputy Inspector General for Audit Services


                  SUBJECT:                         Medicaid Outpatient Drug Expenditues in Pennsylvana for the Period
                                         Review of 


                                         October 1,2003, Through September 30,2005 (A-03-07-00203)


                  Attached is an advance copy of our final report on Medicaid outpatient drg expenditues in
                  Pennsylvana for October 1,2003, through September 30,2005. We wil issue this report to the
                  Pennsylvana Deparment of 
 Public Welfare (the State agency) within 5 business days.

                  The Federal and State Governents jointly fud and administer the Medicaid program. Under
                  the Medicaid drg rebate program, the Centers for Medicare & Medicaid Services (CMS)
                  provides the States with a quarerly Medicaid drg tape, which lists all covered outpatient drgs,
                  indicates a drg's termination date if applicable, and specifies whether the Food and Drug
                  Administration has determined the drg to be less than effective. CMS guidance instructs the
                  States to use the tape to verify coverage of                        the drgs for which they claim reimbursement.



                  Our objective was to determine whether the State agency's claims for reimbursement of
                  Medicaid outpatient drg expenditues complied with Federal requirements.



                  The State agency's claims for reimbursement of 
                       Medicaid outpatient drg expenditures for fiscal
                  years 2004 and 2005 did not fully comply with Federal requirements. Of                         the $1.96 billion
                  ($1.1 billion Federal share) claimed, $4.4 milion (Federal share) represented expenditues for drg
                  products that were not eligible for Medicaid coverage because they were either (1) terminated
                  drgs for which the termination dates were listed on the CMS quarterly drug tape before the drgs
                  were dispensed, (2) inadequately supported drg expenditues, or (3) drgs listed on the CMS
                  quarerly drg tape as less than effective.

                  An additional $5.9 million (Federal share) represented expenditures for drg products that were
                  not listed on the quarerly drg tapes. Because the State agency did not verify whether the drugs

                  missing from the tapes were eligible for Medicaid coverage, these drug expenditues may not
                  have been allowable for Medicaid reimbursement. For the remainder of 
     the $1.96 billion
                  ($1.1 bilion F ederal share) claimed, we identified no other errors with respect to whether the
Page 2 – Kerry Weems


drugs were (a) terminated, (b) supported with adequate documentation, (c) less than effective, or
(d) included on the CMS quarterly drug tapes.

The State agency had inadequate controls to ensure that all of its outpatient drug expenditures
complied with Federal requirements.

We recommend that the State agency:

    •	 refund $4,397,728 to the Federal Government for drug expenditures that were not
       eligible for Medicaid coverage;

    •	 work with CMS to resolve $5,900,935 in payments for drugs that were not listed on the
       quarterly drug tapes and that may not have been eligible for Medicaid coverage; and

    •	 strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
       with Federal requirements, specifically:

             o	 claim expenditures only for drugs that are dispensed before the termination dates
                listed on the quarterly tapes,

             o	 maintain documentation that supports the expenditures reported on the CMS-64,

             o	 maintain readily reviewable documentation that identifies the actual drugs used,

             o	 do not claim expenditures for drugs that are listed as less than effective on the
                quarterly drug tapes, and

             o	 verify whether drugs not listed on the quarterly drug tapes are covered under the
                Medicaid program and notify CMS when drugs are missing from the tapes.

In comments on our draft report, the State agency generally agreed with our recommendations
and provided additional documentation to support $957,999 (Federal share) of its claim.
However, we were unable to reconcile the documentation we received to the CMS-64 or to other
documentation previously provided during the audit. We modified our finding accordingly, and
continue to support our recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Stephen Virbitsky, Regional Inspector General for Audit Services, at (215) 861-4470 or
through e-mail at Stephen.Virbitsky@oig.hhs.gov. Please refer to report number
A-03-07-00203.


Attachment
...è.p "'Vl~
f; -f                            HEALTH &
                   DEPARTMENT OF HEALTH & HUMAN
                                          HUMAN SERVICES                                             OFFICE OF INSPECTOR
                                                                                                               INSPECTOR GENERAL


~~",~:: E
                                                                                            Offce of
                                                                                                      Office  of Audit Services, Region
                                                                                                      Public Ledger Building,
                                                                                                                                 Region III
                                                                                                                                        III
                                                                                                                      Building, Suite 316
                                                                                                      150 S.
                                                                                                      150  S. Independence
                                                                                                               Independence Mall West
                                                                                                      Philadelphia, PA
                                                                                                      Philadelphia,  PA 19106-3499
                                                                                                                         19106-3499


                                                           OCT
                                                           OCT 110  2008
                                                                 0 2008
         



               Report Number:
               Report Number: A-03-07-00203

            Mr. Theodore Dallas
            Mr.
            Executive Deputy Secretary
            Pennsylvania Department of Public Welfare
            P.O. Box 2675
            P.O.
         •. Harrisburg,
            Harrisburg, Pennsylvania 17105-2675
                                      17105-2675

               Dear Mr. Dallas:

               Enclosed is
               Enclosed        is the
                                  the U.S.
                                        U.S. Department
                                                Department of     of Health
                                                                     Healthand
                                                                            andHuman
                                                                                HumanServices
                                                                                       Services(HHS),
                                                                                                (HHS),Office
                                                                                                       Offce ofInspector
                                                                                                             ofInspector
               General
               General (OIG),(OIG),     final
                              final report      report
                                           entitled "Reviewentitled
                                                            of 
                        Outpatient Drug
                                                                    "Review of Medicaid Outpatient  Drug Expenditures
                                                                                                         Expenditues in
               Pennsylvania          for   the   Period
               Pennsylvania for the Period October 1,2003,   October  1,2003, Through September 30, 2005." We
                                                                                      September  30, 2005." We will forward a
               copy of this report to the HHS action official noted on the following page for review and any
               action deemed necessary.

               The HHSHHS action official will make final determination as to actions taken on all matters reported.
               We    request
               We request that youthat   you
                                   respond     respond
                                           to this           to this
                                                   offcial within       official
                                                                  30 days            within
                                                                          from the date of                                letter. Your
                                                                                            30 days from the date of this letter.
               response should present   present any comments or additional information that you believe may have a
               bearing on the final determination.

               Pursuant
               Pursuant to theto  the principles
                               principles of 
               Freedom ofInformation
                                                     of the Freedom     ofInformation Act,
                                                                                      Act, 55 U.S.C.
                                                                                              V.S.C. §§552,
                                                                                                       552,asasamended
                                                                                                                amendedbyby
               Public Law 104-231, OIG reports generally are made available to the public to the extent the
               inormation isis not
               information            not subject
                                            subject to
                                                     to exemptions
                                                        exemptions in in the Act (45 CFR part 5).
                                                                                               5). Accordingly,
                                                                                                   Accordingly, this report
               wil be
               will   be posted
                           posted on  on the
                                           the Internet
                                                Internet at
                                                         at http://oig.hhs.gov.
                                                            http://oig.hhs.gov.

               If you have any questions or comments about this report, please do not hesitate to call me, or
               contact Mr.
                       Mr. Robert Baiocco, Audit Manager, at 215-861-4486 or through e-mail at
               Robert.Baiocco~oig.hhs.gov.
               Robert.Baiocco@oig.hhs.gov. Please
                                              Please refer
                                                     refer to
                                                           to report number A-03-07-00203 in all
                                                                     number A-03-07-00203
               correspondence.

                                                                      Sincerely,


                                                                .)+;;G- ~
                                                                      Stephen Virbitsky
                                                                      Regional Inspector General
                                                                        for Audit Services


               Enclosure
Page 2 – Mr. Theodore Dallas


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    REVIEW OF MEDICAID

     OUTPATIENT DRUG

     EXPENDITURES IN 

PENNSYLVANIA FOR THE PERIOD 

 OCTOBER 1, 2003, THROUGH

    SEPTEMBER 30, 2005 





                    Daniel R. Levinson

                     Inspector General 


                      October 2008

                      A-03-07-00203

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the Centers
for Medicare & Medicaid Services (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. In Pennsylvania, the Department of Public Welfare (the State
agency) administers Medicaid.

In addition to providing mandatory Medicaid services, States may offer certain optional services,
such as outpatient prescription drugs, to eligible Medicaid beneficiaries. Most States, including
Pennsylvania, administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. The program generally pays for covered outpatient drugs if the
drug manufacturers have rebate agreements with CMS and pay rebates to the States. Under the
drug rebate program, CMS provides the States with a quarterly Medicaid drug tape, which lists all
covered outpatient drugs, indicates a drug’s termination date if applicable, and specifies whether
the Food and Drug Administration has determined the drug to be less than effective. CMS
guidance instructs the States to use the tape to verify coverage of the drugs for which they claim
reimbursement.

In Pennsylvania, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS
reimburses the State agency based on the Federal medical assistance percentage for the majority of
claimed Medicaid outpatient drug expenditures.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for reimbursement of Medicaid
outpatient drug expenditures complied with Federal requirements.

SUMMARY OF FINDINGS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for fiscal
years 2004 and 2005 did not fully comply with Federal requirements. Of the $1.96 billion
($1.1 billion Federal share) claimed, $4,397,728 (Federal share) represented expenditures for drug
products that were not eligible for Medicaid coverage because they were either (1) terminated
drugs for which the termination dates were listed on the CMS quarterly drug tape before the drugs
were dispensed, (2) inadequately supported drug expenditures, or (3) drugs listed on the CMS
quarterly drug tape as less than effective.

An additional $5,900,935 (Federal share) represented expenditures for drug products that were not
listed on the quarterly drug tapes. Because the State agency did not verify whether the drugs



                                                 i
missing from the tapes were eligible for Medicaid coverage, these drug expenditures may not have
been allowable for Medicaid reimbursement. For the remainder of the $1.96 billion ($1.1 billion
Federal share) claimed, we identified no other errors with respect to whether the drugs were
(a) terminated, (b) supported with adequate documentation, (c) less than effective, or (d) included
on the CMS quarterly drug tapes.

The State agency had inadequate controls to ensure that all of its outpatient drug expenditures
complied with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

    •	 refund $4,397,728 to the Federal Government for drug expenditures that were not eligible
       for Medicaid coverage;

    •	 work with CMS to resolve $5,900,935 in payments for drugs that were not listed on the
       quarterly drug tapes and that may not have been eligible for Medicaid coverage; and

    •	 strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
       with Federal requirements, specifically:

            o	 claim expenditures only for drugs that are dispensed before the termination dates
               listed on the quarterly tapes,

            o	 maintain documentation that supports the expenditures reported on the CMS-64,

            o	 maintain readily reviewable documentation that identifies the actual drugs used,

            o	 do not claim expenditures for drugs that are listed as less than effective on the
               quarterly drug tapes, and

            o	 verify whether drugs not listed on the quarterly drug tapes are covered under the
               Medicaid program and notify CMS when drugs are missing from the tapes.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In comments on our draft report, the State agency generally agreed with our recommendations and
provided additional documentation to support $957,999 (Federal share) of its claim. However, we
were unable to reconcile the documentation we received to the CMS-64 or to other documentation
previously provided during the audit. We modified our finding accordingly and continue to
support our recommendation.




                                                  ii
                                                   TABLE OF CONTENTS 

                                                                                                                                       Page

INTRODUCTION......................................................................................................................1


          BACKGROUND .............................................................................................................1 

              Medicaid Program................................................................................................1               

              Medicaid Outpatient Prescription Drug Program ................................................1 

              Reimbursement of Medicaid Expenditures..........................................................2


          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2 

               Objective ..............................................................................................................2 

               Scope....................................................................................................................2     

               Methodology ........................................................................................................2          


FINDINGS AND RECOMMENDATIONS ............................................................................3 


          CLAIMS FOR TERMINATED DRUGS ........................................................................3 


          CLAIMS FOR INADEQUATELY SUPPORTED DRUG EXPENDITURES ..............4 


          CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS......................................................5 


          CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES..................5 


          INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND 

            POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES........6 


          REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY 

           UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES....................................6 


          RECOMMENDATIONS.................................................................................................6                   


          STATE AGENCY COMMENTS....................................................................................7 


          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................7 


APPENDIX

          STATE AGENCY COMMENTS




                                                                     iii
                                               INTRODUCTION 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Pennsylvania, the Department of Public
Welfare (the State agency) administers the Medicaid program.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including Pennsylvania, administer their Medicaid prescription drug programs in accordance
with the Medicaid drug rebate program. 1 The program generally pays for covered outpatient
drugs if the drug manufacturers have rebate agreements with CMS and pay rebates to the States.
The rebate agreements require manufacturers to provide a list of all covered outpatient drugs to
CMS quarterly. CMS includes these drugs on a quarterly Medicaid drug tape, makes
adjustments for any errors, and sends the tape to the States. The tape indicates a drug’s
termination date, 2 if applicable, specifies whether the drug is less than effective, 3 and includes
information that the States use to claim rebates from drug manufacturers. CMS guidance
instructs the States to use the tape to verify coverage of the drugs for which they claim
reimbursement and to calculate the rebates that the manufacturers owe.




1
 The Omnibus Budget Reconciliation Act of 1990 established the Medicaid drug rebate program effective January 1,
1991. The program is set forth in section 1927 of the Act. Arizona is the only State that does not participate in the
program.
2
 The termination date, which the manufacturer submits to CMS, reflects the shelf-life expiration date of the last
batch sold for a particular drug code. However, if the drug is pulled from the market for health or safety reasons, the
termination date is the date that the drug is removed from the market.
3
 The Food and Drug Administration determines whether drugs are less than effective. Such drugs lack substantial
evidence of effectiveness for all conditions of use prescribed, recommended, or suggested in their labeling.


                                                          1

Reimbursement of Medicaid Expenditures

In Pennsylvania, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS
reimburses the State agency based on the Federal medical assistance percentage (reimbursement
rate) for the majority of claimed Medicaid expenditures, including outpatient drug expenditures.

For Federal fiscal years (FY) 2004 and 2005, Pennsylvania’s Federal reimbursement rate for
Medicaid expenditures varied from 53.84 percent to 57.71 percent.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures complied with Federal requirements.

Scope

The audit scope included $1.96 billion ($1.1 billion Federal share) in Medicaid outpatient drug
expenditures that the State agency claimed for FYs 2004 and 2005. We limited our testing of
these expenditures to determining compliance with specific Federal requirements related to
whether the drugs were (a) terminated, (b) supported with adequate documentation, (c) less than
effective, and (d) included on the CMS quarterly tapes.

We limited our internal control review to the State agency’s procedures for determining whether
the outpatient drugs were eligible for Medicaid coverage and were accurately claimed for
Federal reimbursement. We did not review the accuracy or completeness of the quarterly
Medicaid drug tapes.

We conducted fieldwork at the State agency’s offices in Harrisburg, Pennsylvania.

Methodology

To accomplish our objective, we reviewed applicable Federal laws, regulations, and program
guidance and the State plan. We interviewed State agency officials responsible for identifying
and monitoring drug expenditures and rebate amounts. We also interviewed staff responsible for
reporting drug expenditures to CMS.

We used the quarterly drug tapes for the period October 1, 1999, through June 30, 2006. We
reconciled the amounts that the State agency reported on its CMS-64s to a detailed list of the
State agency’s outpatient drug expenditures. We also used the detailed list of drug expenditures
to determine whether the expenditures complied with Federal requirements. Specifically, we
determined whether the drugs for which the State agency claimed reimbursement were dispensed
after the termination dates listed on the quarterly drug tape or were listed as less than effective on
the tape. In addition, we determined whether CMS had included the termination dates on the



                                                  2

quarterly drug tape in a timely manner—that is, before terminated drugs could be dispensed. To
account for reasonable delays in processing data for terminated drugs, we used the first day of
the quarter after the State received the tape as the termination date if the termination dates were
provided to the States retroactively.

We also determined whether the drugs claimed for reimbursement were listed on the applicable
quarterly drug tape. If the drugs were not listed on the tape, we determined whether the State
agency had verified whether the drugs were eligible for Medicaid coverage.

We calculated the Federal share of the expenditures using the lowest percentage (53.84 percent
to 57.71 percent) applicable for each quarter. We did not reduce the questioned drug
expenditures by the rebate amounts that the State received.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for
FYs 2004 and 2005 did not fully comply with Federal requirements. Of the $1.96 billion
($1.1 billion Federal share) claimed, $4,397,728 (Federal share) represented expenditures for
drug products that were not eligible for Medicaid coverage because they were (1) terminated
drugs for which the termination dates were listed on the CMS quarterly drug tape before the
drugs were dispensed, (2) inadequately supported with documentation, or (3) drugs listed on the
CMS quarterly drug tape as less than effective.

An additional $5,900,935 (Federal share) represented expenditures for drug products that were
not listed on the quarterly drug tapes. Because the State agency did not verify whether the drugs
missing from the tapes were eligible for Medicaid coverage, these drug expenditures may not
have been allowable for Medicaid reimbursement. For the remainder of the $1.96 billion
($1.1 billion Federal share) claimed, we identified no other errors with respect to whether the
drugs were (a) terminated, (b) supported with adequate documentation, (c) less than effective, or
(d) included on the CMS quarterly drug tapes.

The State agency had inadequate controls to ensure that its outpatient drug expenditures
complied with Federal requirements.

CLAIMS FOR TERMINATED DRUGS

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the product. The termination date equals the expiration




                                                 3

date of the last batch sold, except in cases when the product is pulled from the market. In those
cases, the termination date may be earlier than the expiration date.

According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 19, the States “MUST . . . ASSURE that claims submitted by pharmacists are NOT for
drugs dispensed AFTER the termination date. These should be rejected as invalid since these
drugs cannot be dispensed after this date.” (Emphasis in the original.)

The CMS Medicaid drug rebate program release to State Medicaid directors, number 130, states
that “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are dealing with
the drug rebate program.” The quarterly drug tapes list the Medicaid-covered drugs’ termination
dates as reported by the drug manufacturers.

For FYs 2004 and 2005, the State agency claimed $3,283,294 ($1,800,651 Federal share) in
expenditures for drugs that, according to the State’s records, were dispensed after the termination
dates shown on the quarterly drug tapes. For example, the State agency paid for the drug Zocor,
which was dispensed on May 9, 2005. However, the drug’s termination date was April 30, 2004,
according to the tapes beginning with the quarter that ended March 31, 2002. The claimed
expenditure was unallowable because it occurred after the drug’s termination date, which was
listed on the quarterly drug tape at the time the State agency made the expenditures.

CLAIMS FOR INADEQUATELY SUPPORTED DRUG EXPENDITURES

Section 1927 of the Act generally defines which covered outpatient drugs are allowable for
Federal reimbursement under the Medicaid program. To receive reimbursement for covered
drugs, States must maintain documentation identifying the specific drugs used. According to the
CMS “State Medicaid Manual,” section 2497.1: “Expenditures are allowable only to the extent
that, when a claim is filed, you have adequate supporting documentation in readily reviewable
form to assure that all applicable Federal requirements have been met.”

For FYs 2004 and 2005, the State agency claimed $2,819,189 ($1,493,284 Federal share) in drug
expenditures on its quarterly CMS-64s for which it did not have any supporting documentation
that identified which drugs were claimed. Without this supporting documentation, the State
agency could not demonstrate that its claims for reimbursement were covered under the
Medicaid program. These claims were therefore unallowable.

The State agency also claimed $1,663,053 ($957,999 Federal share) in drug expenditures for
which it did not provide adequate supporting documentation to indicate that the drugs met
Federal requirements. These expenditures contained national drug codes (NDC) that had a
labeler code (first five digits of the NDC) with all zeroes, with all nines, or were blank. The
claimed expenditures were unallowable because the State agency did not have adequate
documentation to show that the drugs complied with Federal requirements.




                                                 4

CLAIMS FOR LESS-THAN-EFFECTIVE DRUGS

Section 1903(i)(5) of the Act prohibits Federal Medicaid funding for drug products that are
ineligible for Medicare payment pursuant to section 1862(c) of the Act. Section 1862(c)
prohibits Federal funding for drug products determined to be less than effective for all conditions
prescribed, recommended, or suggested on the product’s label. According to the CMS Medicaid
drug rebate program release to State Medicaid directors, number 130: “. . . the CMS [quarterly
drug tape] is the one to use for ALL data when you are dealing with the drug rebate program.”
The quarterly drug tapes identify drugs that have been determined to be less than effective.

For FYs 2004 and 2005, the State agency claimed $266,882 ($145,794 Federal share) in
expenditures for drugs classified as less than effective on the quarterly drug tapes. For example,
the State paid for the drug Estratest, which was dispensed on September 4, 2004. However,
CMS reported the drug as less than effective on the tapes beginning with the quarter that ended
March 31, 2004. The claimed expenditure was unallowable because the drug was dispensed
after CMS reported it as less than effective.

CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES

Section 1927(a)(1) of the Act generally conditions Medicaid reimbursement for covered
outpatient drugs on a requirement that manufacturers of those products enter into rebate
agreements with CMS under which they pay rebates to the States. 4 The rebate agreements
require manufacturers to provide a list of all covered outpatient drugs to CMS quarterly. CMS
includes these drugs on the quarterly drug tapes and makes adjustments for any errors.
According to the CMS Medicaid drug rebate program release to State Medicaid directors,
number 130: “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program. . . . If [a drug code] that is not on the last CMS [quarterly
drug tape] you received is billed to you by a pharmacy . . . check with CMS to assure that the
[drug code] is valid . . . .” Furthermore, the CMS Medicaid drug rebate program release to State
Medicaid directors, number 44, provides that: “States must check the [quarterly drug tape] to
ensure the continued presence of a drug product . . . .”

The CMS “Medicaid Drug Rebate Operational Training Guide,” page S-S5, states: “If you have
paid for [a drug code] that is NOT on [the quarterly drug tape] you should have checked to make
sure it was correct. If you paid a pharmacy for utilization on an invalid [drug code], you may
have to . . . recoup your funds.”

For FYs 2004 and 2005, the State agency claimed $10,840,017 ($5,900,935 Federal share) in
expenditures for drug products that were not listed on the quarterly drug tapes. The State agency
did not contact CMS to ensure that these drugs were eligible for Medicaid coverage under the
Act. As a result, the State agency did not have conclusive evidence that these payments were
allowable Medicaid expenditures.

4
 Pursuant to section 1927(a)(3) of the Act, a State may exempt certain drugs from the requirement to be covered by
a drug rebate agreement if the State has determined that availability of the drug is essential to the health of Medicaid
beneficiaries.



                                                           5

INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND
POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency did not have adequate controls to ensure that all Medicaid drug expenditures
complied with Federal requirements or to detect unallowable and potentially unallowable claims
for reimbursement. For some of its drug claims, the State agency did not maintain supporting
documentation that identified which drugs it claimed and therefore could not demonstrate that its
claims for reimbursement were covered under the Medicaid program. The State agency also did
not check the quarterly drug tapes to ensure that the drugs were eligible for Medicaid coverage.

REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency claimed Federal reimbursement for certain drugs that were not eligible for
Medicaid coverage because they were terminated, inadequately supported, or less than effective.
As a result, for FYs 2004 and 2005, the State agency claimed unallowable expenditures totaling
$8,032,418 ($4,397,728 Federal share) for these drugs. The State agency also claimed Federal
reimbursement for drug products that were not listed on the quarterly drug tapes. For these
drugs, we set aside potentially unallowable expenditures totaling $10,840,017 ($5,900,935
Federal share) for CMS adjudication because the State agency did not determine whether the
drugs were covered by Medicaid.

RECOMMENDATIONS

We recommend that the State agency:

    •	 refund $4,397,728 to the Federal Government for drug expenditures that were not
       eligible for Medicaid coverage;

    •	 work with CMS to resolve $5,900,935 in payments for drugs that were not listed on the
       quarterly drug tapes and that may not have been eligible for Medicaid coverage; and

    •	 strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
       with Federal requirements, specifically:

           o	 claim expenditures only for drugs that are dispensed before the termination dates
              listed on the quarterly tapes,

           o	 maintain documentation that supports the expenditures reported on the CMS-64,

           o	 maintain readily reviewable documentation that identifies the actual drugs used,

           o	 do not claim expenditures for drugs that are listed as less than effective on the
              quarterly drug tapes, and




                                                6

           o	 verify whether drugs not listed on the quarterly drug tapes are covered under the
              Medicaid program and notify CMS when drugs are missing from the tapes.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency generally agreed with our recommendations
but asked us to reconsider our finding that $957,999 was unallowable because the State agency
did not have any supporting documentation. On July 30, 2008, the State agency provided
additional claims data to support its request.

OFFICE OF INSPECTOR GENERAL RESPONSE

We were unable to reconcile the documentation we received to the CMS-64 or to other
documentation previously provided during the audit. We modified our finding accordingly and
continue to support our recommendation.




                                               7

APPENDIX 

APPENDIX
 Page 1 of 3
APPENDIX
 Page 2 of 3
APPENDIX
 Page 3 of 3 

